HHS/OIG, Audit - "Review of Expenses and Revenues Presented in
Congressional Testimony by Touro Infirmary," (A-06-08-00012)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Expenses and Revenues Presented in Congressional Testimony by Touro Infirmary," (A-06-08-00012)
May 12, 2008
Complete
Text of Report is available in PDF format (724 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In an audit conducted at the request of the House Committee
on Energy and Commerce, we found that Touros (the hospital) expenses presented
in its congressional testimony were generally accurate and supported by its
financial records.  However, the hospitals revenue as described in the
testimony for the first 5 months of 2007 did not include $3.9 million of revenue
that it received during this period.  At an August 1, 2007, committee hearing,
the hospital presented a summary of financial data comparing its pre-Katrina
(January through May 2005) and post-Katrina (January through May 2007) expenses
and revenues.  The hospital requested additional Federal financial assistance,
including additional grant funds from the Department, to cover losses incurred
as a result of Hurricane Katrina.
The hospital agreed with the results of our review.  This was an informational
report, and we had no recommendations.